Office of Inspector General


November 19, 2012

MEMORANDUM

TO:                  M/OAA, Chief Acquisition Officer and Director, Aman S. Djahanbani

FROM:                IG/A/PA, Director, Steven Ramonas /s/

SUBJECT:             Follow-Up Review of USAID’s Process of Suspension and Debarment
                     (Report No. 9-000-13-002-S)


This memorandum transmits our final report on the subject review. This report does not contain
any recommendations. I appreciate the cooperation and courtesy extended to my staff during
the review.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
SUMMARY
Suspensions and debarments are penalties imposed on unethical, dishonest, or otherwise
irresponsible contractors to protect the Government’s financial interest and to reduce waste,
fraud, and abuse in federal programs. They are discretionary actions that prevent contractors
and recipients1 from participating in government contracts, subcontracts, loans, grants, and
other assistance2 programs for a set time. A suspension is temporary, pending the completion
of an investigation or legal proceeding, and a debarment is for a fixed time that depends on the
seriousness of the cause, but generally does not exceed 3 years.

According to Congress, the magnitude of federal spending on contracts, coupled with instances
of alleged contractor misconduct, prompted it to consider ways to make suspension and
debarment more effective ways to prevent the Government from using irresponsible contractors.
USAID’s acquisition and assistance obligations since fiscal year 2010 are in Table 1.

                   Table 1. Acquisition and Assistance Obligations (Unaudited)
                                           (Billions $)
              Fiscal Year            Acquisition            Assistance          Total
                  2010                    5.58                  8.94            14.52
                  2011                    4.48                  9.37            13.85
                  2012*                   2.91                  5.65              8.56
                 Total                  12.97                 23.96
            Source: Office of Acquisition and Assistance (OAA), September 4, 2012
            *
                Through June 30, 2012.

In the “Audit of USAID’s Process for Suspension and Debarment,”3 USAID’s Office of Inspector
General (OIG) found that the Agency’s suspension and debarment process hindered the Office
of Acquisition and Assistance (OAA) from taking appropriate suspension and debarment
actions. The audit also found that USAID did not issue enough suspensions and debarments.
Moreover, OAA did not execute the actions properly, and the documentation for them frequently
was incomplete.

As a result, OIG made 12 recommendations to OAA to help it strengthen the Agency’s
suspension and debarment process. USAID agreed with all of them. In two separate
memoranda dated September 30, 2010, and February 25, 2011, the Audit, Performance and
Compliance Division (APC) determined that USAID had completed final actions for all
12 recommendations.



1
  A recipient carries out an assistance program on behalf of USAID according to the terms and conditions
of the award and all applicable laws and regulations.
2
  USAID implements activities via acquisition (procurement contracts) or assistance instruments (grants
or cooperative agreements) it awards directly to nongovernmental organizations, even if the activities are
part of a bilateral assistance agreement with a cooperating country. Assistance is used when the
principal purpose of the transaction is to accomplish a public purpose of support or stimulation, as
authorized by the Foreign Assistance Act of 1961, as amended.
3
  Report No. 9-000-10-001-P, issued on October 1, 2009.


                                                                                                        1
OIG conducted this review to determine whether USAID has corrected the problems and
whether the actions taken were effective. In addition, the review determined whether OAA’s
Compliance and Oversight of Partner Performance (COPP) Division was performing its chief
functions.

We determined that USAID corrected the problems and took effective actions. Table 1-III in
Appendix III of this report contains all 12 recommendations with corresponding final actions. In
addition, our review determined that COPP was performing its chief functions.

This report does not contain any recommendations.

Details on review results follow. Appendix I contains a discussion of the review’s scope and
methodology. Management comments are presented in Appendix II, and our evaluation of them
is on page 6.




                                                                                              2
REVIEW RESULTS
Agency’s Suspension and
Debarment Processes Improved
OIG’s previous audit determined that USAID’s decision-making processes for suspension and
debarment actions were not effective. It stated that the entities in charge of suspension and
debarment had too many other responsibilities that hindered them from taking such actions.

Therefore, the Agency established COPP on February 24, 2011, to improve the suspension and
debarment processes.      COPP leads USAID’s suspension and debarment program in
Washington, D.C., and overseas. It is responsible for making recommendations to the
suspending and debarring official regarding administrative actions.4

COPP’s responsibilities are to (1) recommend suspension and debarment actions of entities or
individuals,5 (2) monitor progress and facilitate actions toward meeting the Agency’s past
performance goals, (3) manage assistance appeals, and (4) assist and determine the next step
for receiving credible evidence of violations disclosed by partners.

OAA Has Taken More Suspension and Debarment Actions. Before COPP, OIG referred
suspension and debarment actions to OAA. Now COPP independently considers causes for
such actions as a part of its standard operating procedures. It collaborates with the Agency’s
General Counsel’s Office of Litigation and Enforcement to develop actions.

These efforts have increased the number of actions COPP has taken. OAA took only 9 actions
in fiscal years 2003 through 2007, whereas COPP has taken 145 actions from October 2010
through July 2012, as shown in Table 2.

          Table 2. COPP’s Suspension and Debarment Actions Through July 2012
                          Action                       Entity       Individual         Total
          Suspension                                      1             11               12
          Proposed debarment                              6             73               79
          Debarment                                       4              50              54
          Total                                          11             134             145
         Source: OAA

Past Performance Reports Were Monitored. Past performance reports provide source
selection authorities6 information on a contractor’s history of performance in many areas such

4
  Administrative actions are used to protect the U.S. Government’s interests, ensure that it only conducts
business with responsible parties, and that it not to business with organizations or people who pose risks.
5
  Suspensions and debarment can be extended to include subsidiaries, parent companies, and other
individuals.
6
  The source selection authority (SSA) is an official who has the authority and is responsible for selecting
a contractor, as required by the Federal Acquisition Regulation (FAR) and Office of Management and
Budget Circular A-76. The SSA and the contracting officer may be the same person, according to USAID
Automated Directives System (ADS) 104, depending on the dollar amount of the award.

                                                                                                          3
as technical quality, cost control, and business relations. The Contractor Performance
Assessment Reporting System (CPARS) is an online system that contracting officers use to
enter data on contractor performance. Completed reports are available to source selection
authorities in the Past Performance Information Retrieval System (PPIRS) database. These
reports help the Agency award contracts to contractors that provide good products and services
on schedule and that conform to contractual requirements.

Since May 2011, COPP and OAA’s Cost, Accounting, and Reporting Branch have been
involved in OAA’s initiative to increase the number and quality of reports entered into CPARS.
OAA’s staff collaborated with contracting officers, contracting officer’s representatives, and
mission directors, conducted training and information sessions on their individual roles and
responsibilities, led the past performance working group, and increased the number of people
entering information into CPARS from 1 to more than 50.

These reviews helped COPP provide examples and feedback for the CPARS training course
and an all-day session on the system that was included in the Acquisition Bootcamp Course
(which was held for the first time in FY 2012).

Management of Assistance Appeals Improved. According to USAID regulations governing
grants and cooperative agreements, recipients can appeal an agreement officer’s decisions.
The decisions range from ordinary program management actions to whether to terminate an
award.

COPP has made recommendations to the deciding official on all appeals that the Agency has
received since July 2011. During that time, COPP completed 24 appeals, most of which
involved disallowed costs. As a result, USAID has recovered approximately $8 million through
September 2012. Additionally, COPP conducted a desk audit of all the appeals to reduce the
backlog.

Support on Partner Disclosures Enhanced. Self-disclosure by a partner is one way that
COPP receives allegations of waste, fraud, and abuse. COPP analyzes disclosures to
determine whether it needs to take any actions. Those actions include providing guidance to
the contracting or agreement officer, coordinating with OIG regarding potential or ongoing
investigations, meeting with the implementing partner to discuss its responsibilities, and
developing best practices.

COPP implemented Federal Acquisition Regulation (FAR) Clause 52.203-13, “Contract Code of
Business Ethics and Conduct,” to better monitor contractor responsibility and resolve cases of
wrongdoing or misrepresentation against the U.S. Government.

Other OAA Actions. OAA issued Procurement Executive Bulletin 2011-027 to confirm that
organizations receiving contracts, grants, and cooperative agreements are eligible in
accordance with federal statutes, policies and regulations, and Agency policy.

COPP launched an outreach initiative to educate USAID personnel and partners about its roles
and responsibilities. It also established the red alert system to notify the acquisition and




7
    OAA uses these bulletins to issue guidance, best practices, reminders, and answers.

                                                                                            4
assistance community via e-mail when it has taken a suspension or debarment action against
an individual or entity.

COPP manages its records according to USAID’s Automated Directives System (ADS) 502. It
established Standard Operating Procedure 2010-01, “General Guidance for Suspension,
Debarment Agency Administrative Compliance Agreement File Standardization,” for all
suspension and debarment case files. COPP also updated procedures for entering information
into the Excluded Parties List System8 to conform to ADS 502.

Finally, COPP reports suspension and debarment data monthly, quarterly, and annually to the
Agency. Moreover, excluded individuals are posted on COPP’s Web page. These reports help
Agency officials respond to requests for information from a variety of sources such as Congress,
contractors, recipients, and USAID staff.




8
  The Excluded Parties List System includes information regarding entities debarred, suspended,
proposed for debarment, excluded or disqualified under the nonprocurement common rule or otherwise
declared not eligible to receive federal contracts, certain subcontracts, and certain federal assistance and
benefits. This information could include names, addresses, and taxpayer identification numbers (like
Social Security), if available and deemed appropriate and permissible to publish by the agency taking the
action. Although the General Services Administration operates the system, individual agencies are
responsible for the timely reporting, maintenance, and accuracy of their data.

                                                                                                          5
                                                                            Appendix I



EVALUATION OF MANAGEMENT
COMMENTS
OAA agreed with OIG’s findings and conclusions. OAA also confirmed that they have
implemented additional improvements and expanded the suspension and debarment process.




                                                                                    6
SCOPE AND METHODOLOGY
Scope
OIG’s Performance Audits Division conducted this review in accordance with government
auditing standards. Those standards require that we plan and perform the review to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our objectives. We believe that the evidence obtained provides that
reasonable basis.

We designed the review to answer the following review objectives:

   Did USAID management implement planned actions in response to the recommendations in
   Report No. 9-000-10-001-P, and were the actions effective?

   Is COPP (1) overseeing suspension and debarment actions, (2) advising on past
   suspension and debarment performance trends, (3) overseeing contractors’ statements and
   corrective actions, (4) receiving reports on suspicious activities, and (5) coordinating with its
   internal constituents?

We conducted the review at USAID in Washington, D.C., from July 31 through August 31, 2012.

Methodology
In planning and performing the review, we obtained and reviewed the previous audit report;
examined OAA’s and APC’s supporting documents to close the recommendations; and
interviewed officials from OAA and APC.

We reviewed the actions OAA took to determine whether they corrected the problems. To do
so, we reviewed COPP’s suspension and debarment monthly and quarterly status reports. In
addition, we compared USAID’s systems and records with those of the Excluded Parties List
System, and reviewed all documented procurement and nonprocurement suspension and
debarment actions the Agency took.

For criteria, we used the relevant information from USAID’s ADS and other federal policies. We
relied on Report No. 9-000-10-001-P to identify and review the criteria that were used and to
gain an understanding of the reported findings. These determinations were based on
professional judgment.




                                                                                                  7
                                                                                    Appendix II



MANAGEMENT COMMENTS



November 15, 2012

To:           IG/A/PA, Director Steven Ramonas

From:         M/OAA, Director of Operations, Mark Walther for Chief Acquisition Officer,
              Director, and Suspending and Debarring Official Aman S. Djahanbani /s/

Subject:      Office of Inspector General Draft Follow Up Review Report of USAID’s Process
              of Suspension and Debarment (Report No. 2-000-13-00X-S)

This memorandum provides written comments to the subject draft review report.

AUDIT RECOMMENDATIONS: None

COMMENT: We concur with the Office of Inspector General’s (OIG) conclusion not to
make any recommendations as a result of its follow up review of the suspension and
debarment process. The Office of Acquisition and Assistance, largely through its
Compliance and Oversight of Partner Performance (COPP) Division, implemented the
recommendations from the OIG FY2009 Audit of USAID’s Process of Suspension and
Debarment, Report No. 9-000-10-001-P. Moreover, additional improvements and
expansion of the process have been implemented since the aforementioned report. The
draft report includes several examples in this regard. We appreciated the opportunity to
work with your office throughout the follow up review in a collaborative manner.




                                                                                             8
                                                                                        Appendix III


       Table 1-III. Prior Audit Recommendations and Corresponding Final Actions

            Recommendation Number                                      Final Action

1: We recommend that USAID modify Chapter
                                                       On April 12, 2010, General Counsel approved
103.3.10.5 of the Agency’s Automated Directives
                                                       changing ADS to include the delegated
System to state that the delegated responsibility
                                                       responsibility under suspension and debarment
under suspension and debarment regulations includes
                                                       to consider all cases for suspension and
the responsibility to consider all causes for
                                                       debarment actions.
suspension and debarment actions.

                                                       OAA established SOP-2010-01 in June 2009. It
2: We recommend that the Director of USAID's Office
                                                       covers the time lines involved for the various
of Acquisition and Assistance institute a process to
                                                       actions, including notices of suspension and
alert responsible staff when notification of the
                                                       proposed debarments, issuing final debarment
Agency’s final decision to debar must be provided to
                                                       decisions, and entries to the Excluded Parties
meet time frames outlined in Federal regulations.
                                                       List System.


3: We recommend that the Director of USAID's Office
of Acquisition and Assistance develop a procedure to
ensure that suspension and debarment actions are       OAA established SOP-2010-03 in March 2010.
entered in the Excluded Parties List System within 5
workdays.



4: We recommend that the Director of USAID's Office
of Acquisition and Assistance implement procedures
for maintaining proper suspension and debarment        OAA established SOP-2010-01 in March 2010.
case files in accordance with Automated Directives
System 502.



5: We recommend that the Director of USAID's Office
of Acquisition and Assistance conduct and document     OAA reviewed all suspension and debarment
a review of current suspension and debarment actions   actions and issued a memorandum on
and, if records are incomplete, compile support for    September 23, 2010.
those actions.


6: We recommend that the Director of USAID's Office    Procurement    Executive    Bulletin  2011-01
of Acquisition and Assistance provide written          implemented the management decisions for
guidance to contracting officers to reinforce the      two recommendations. Instead of revising the
documentation requirements for the Certification       Procurement Executive Bulletin 2005-12, OAA
Regarding Responsibility Matters outlined in Federal   issued a new one, 2011-2, because of the many
Acquisition Regulation 9.105-2(b) and 4.1201(c).       changes OAA Policy wanted to address in it.




                                                                                                    9
             Recommendation Number                                        Final Action

7: We recommend that the Director of USAID's Office
of Acquisition and Assistance obtain and document
                                                         OAA wrote on March 12, 2010, that all files with
the Certification Regarding Responsibility Matters for
                                                         missing    certifications   now include      the
the identified contracts missing the certification, in
                                                         appropriate certifications.
accordance with Federal Acquisition Regulation
9.104-5(b).

8: We recommend that the Director of USAID's Office
of Acquisition and Assistance provide written
procedural guidance to contracting officers to           Procurement    Executive   Bulletin    2011-01
reinforce the requirements to conduct Excluded           implemented the management decisions for this
Parties List System reviews during the bidding and       recommendation (as described in final action for
awarding process and to document those reviews, in       Recommendation 6).
accordance with Federal Acquisition Regulation
9.405(d) and 9.105-2(b).

9: We recommend that the Director of USAID's Office
                                                         On January 28, 2010, USAID’s senior deputy
of Acquisition and Assistance consult with the
                                                         assistant   administrator    for   management
Assistant Administrator for Management about the
                                                         approved the creation of an independent division
most effective delegation of the Agency’s suspension
                                                         that focused on suspensions, debarments, and
and debarment responsibilities and document the
                                                         assistance appeals.
results of the consultation.

10: We recommend that the Director of USAID's
                                                         As noted in Request for Closure of
Office of Acquisition and Assistance submit an action
                                                         Recommendation 9, USAID’s senior deputy
memorandum to higher management for the creation
                                                         assistant   administrator     for  management
of a division containing legal expertise and dedicated
                                                         approved the creation of an independent division
staff for the development, evaluation, and
                                                         that focused on suspensions, debarments, and
recommendation of suspension and debarment
                                                         assistance appeals.
actions for the suspension and debarment official.

11: We recommend that the Director of USAID's
Office of Acquisition and Assistance implement all of
                                                         OAA established COPP to oversee suspension
the six methods that other federal agencies use to
                                                         and debarment activities, and it plans to employ
identify matters to consider for suspension and
                                                         all six methods used by other federal agencies.
debarment and, if any are not implemented, document
why the method would not benefit the Agency.

12: We recommend that the Director of USAID's
Office of Acquisition and Assistance petition, in
                                                         On December 30, 2010, OAA recommended
writing, the chair of the Interagency Suspension and
                                                         that  the    Inter-Agency   Suspension  and
Debarment Committee to establish a subcommittee to
                                                         Debarment Committee establish a subcommittee
enumerate and share federal best practices for
                                                         to enumerate and share best practices.
identifying matters to be referred for suspension and
debarment consideration.




                                                                                                      10
